tp';
j L

IN THE SUPREME COURT OF THE UNITED STATES

n

/T\ [pP P ^ ' A pi j:P k jpi 1
V" -1 : f'i P ‘-1 *■’ H hU! /;V\ I
■i ■■'. :;> ! iP h LyL iJ'\1

\U i!;; iiLK^itiDVifnA
“IN RE [THERESAS. ROMAIN] “ PETITIONER

FILED
OCT 2 3 2020
ON PETITION FOR WRIT OF MANDAMUS TO THE
APPEALS COURT FOR THE STATE OF NEW YORK

r

ON PETITION FOR WRIT OF MANDAMUS

Theresa S. Romain
P.O. Box 392
Marlboro NY 12542
deball@ mail.com

QUESTION PRESENTED:
1. Can a State Court applied clearly established Federal Law
erroneously or incorrectly as to cause harm to a
Petitioner?
2. Can innocent as proven guilty be foreclose as to do
justice?

(i)

PARIES TO THE PROCEEDING:
All Parties do not appear in the caption of the case on the cover
page. A list of parties to the proceeding in the court whose judgment
is the subject of this petition are as follows:
William P. Barr (Attorney General United States)
Andrew M. Cuomo ( Governor State of New York)
Letitia James (Attorney General New York)
Hon. Thomas A. Breslin,(Chief Administrative Judge NY State)
Hon. Michael V. Coccoma(Former Deputy Chief Admin. Judge NY)
Hon. Karen K. Peters* (Former Justice Appellate 3rd Dept. NY)
Justice Randall T. Eng (Former justice Appellate 2nd Dept. NY)
Hon. Maria G. Rosa,(Dutchess Supreme Court, Poughkeepsie NY)
Clinton G. Johnson Esq (Ulster County Attorney)
Hon. Kimberly O'Connor (Supreme Court Justice Albany NY)
Eric T. Schneiderman (Former Att. General State of New York,)
•

Hon. Lisa M. Fisher Ulster County Supreme Court NY)

•

Hon. Henry F. Zwack (Former Supreme Court

•

Hon. Christopher E. Cahill (Ulster County Supreme Court)

•

Wells Fargo Bank

• Wilmington Savings fund Society (Bank Wilmington Del
•

Christina Trust/ BCAT 2015-13BTT( Sub of Wilmington Bank)

• Mark R. Knuckles Esq.(

(ii)

Jean Strickland Esq. (Solicitor General NY)
John G. Rusk Esq. (Law Firm Rusk, MartusceUo et al)
Zainab Chaudhry Esq. (Solicitor General NY)

RESPONDENTS ON STATE COURT CAPTION.
HON. KIMBERLY O’CONNOR (original and individual capacity)
MICHAEL IAPOCE Esq. (Commissioner DSS NY)
CAROL PRESSMAN Esq. (Appellate Division 3rd Department)
RACHAEL L.COVELL Esq.(Wapner Koplovitz & Futerfas PLLC)
TRAVIS DAVIS RN (RN Sole Proprietor)
PATRICIA JELACIC Esq.(Former Commissioner DSS)
CATHERINE CHARUK Esq.(Sole Propritor Kingston NY)
DEBORAH GREENFIELD (Supervisor Case Worker Albany NY)
RICHARD PICHI (Supervisor Case Worker Albany NY)
SUZANNE BOTTIGLIERO (Former Case Worker Supervisor Kingston NY)
WINNIE MC NELIS ( Former Case Worker DSS Kingston NY)
PATRICIA SANGI (Former Case Worker DSS Kingston NY)
MELINDA ROBINSON (Case Worker DSS Kingston NY)
ROBYN RANDZIN (Former Case worker DSS Kingston NY)
DANIEL MARTUSCELLO Esq. (Law Firm Rusk, MartusceUo et al)
DEPARTMENT OF SOCIAL SERVICE (DSS) Via Michael Iapoce
(iii)

JOINT APPENDIX FOR EACH PARTY:
William P. Barr (Attorney General United States of America)
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington DC 20530-0001
Andrew M. Cuomo (Governor New York State)
NYS State Capitol Building
Albany, NY. 12224
518- 474- 8390
Letitia James (Attorney General New York State)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
Hon. Thomas A. Breslin(Chief Administrative Judge NY State)
2500 Pond View Suite 210
Castleton on -the Hudson, NY 12033
518-285-8300
Hon. Michael V. Coccoma (Former Administrative Judge NY State)
Supreme Court Chambers
Ostego County Office Bid.
197 main Street,Cooperstown NY. 13326
607-322-3165
Hon. Karen K. Peters (Commissioner on Justice for Minority)
2500 Pond View Suite 210
Castleton on -the Hudson, NY 12033
518-285-8300
Justice Randall T. Eng (Former Supreme Court Judge 2nd Dept.)
990 Stewart Ave, Garden City NY 11530
516-741-6565
Maria G. Rosa (Supreme Court judge Poughkeepsie NY)
10 Market street, Poughkeepsie NY 12601
Clinton G. Johnson Esq. (Ulster County Attorney Kingston NY)
P.O.Box 1800, Kingston, NY 12402
Zainab A. Chaudhry Esq. (Attorney General New York State)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
(iv)
For:

•

HON. KIMBERLY O’CONNOR

•

CAROL PRESSMAN Esq. (Appellate Division 3rd Department)

Jean L. Strickland Esq. (Attorney General State of New York)
One civic Center Plaza, suit 401
Poughkeepsie, NY 12601
For
•

DEBORAH GREENFIELD (Case Worker)

•

RICHARD PICHI (Case worker)

Robert D. Cook Esq.
Cook , Netter, Cloonan, Kurtz and Murphy P.C
85 Main Street
C/O P.0 Box 3939
Kingston NY. 12402 845-943-2498
For
•

MICHAEL IAPOCE Esq.

•

PATRICIA JELACIC Esq.

•

SUZANNE BOTTIGLIERO (Former Supervisor Case Worker)

•

MELINDA ROBINSON (Case Worker)

•

ROBYN RANDZIN (Former Case Worker)

•

WINNIE MC NELIS (Former Case Worker)

•

PATRICIA SANGI (Former Case Worker)

Joshua Koplovitz Esq.
P.O.Box 3268
Kingston NY. 12402
845-331-0100
For:
•

RACHEL COVELL Esq.
(v)

CATHERINE CHARUK Esq. (Pro Se)
P.O.Box 4011 Kingston, NY. 12402
845-334-9775
Goldberg Segalla LLP
11 Martine Ave, Suite 750
White Plains NY. 10606 12566
914-798-5400
For:
•

DANIEL MARTUSCELLO Esq.

TRAVIS DAVIS RN (UN Represented) (Pro se)
121 Stein Road
Pine Bush, NY. 12566 845-744-5113

Department of Social Services (DSS) by Michael Iapoce (Commissioner)
Wells Fargo Home Mortgage by Charlie Scharf (CEO) et al
Head Quaters
420 Montgomery Street
San Francisco, California 94104
Wilmington Savings Fund Society et al
C/O Selene Finance
9990 Richmond Ave
Houston, TX. 77042
John Rusk Esq. (Law Firm Sole Propritor, Rusk, Martuscello)
(Un represented)
255 Fair Street
Kingston, NY 12401 845-331-4100
United Parcel Service (UPS) et al
Cooperate Office, 55 Glenlake Pk Way N.E.
Atlanta GA. 30328
Microsoft Corporation et al by Satya Nadella (CEO)
One Microsoft Way, Redmond W.A. 98052
Google LLC et al
Cooperate Head quaters C/O Alphabet Inc.
1600 Amphitheatre PK Way
Mountain View CA. 94043
(vi)

Gross Polowy LLC et al by Sarah K. Hyman Esq/B. Biodonde Esq.
1775 Wherle Drive Suite 100
Williamsville NY 14221
Knuckles Komoisinski & Manfro LLP
565 Taxer Road Suite 590
Elmsforde New YorK 10523 Attn: Mark Knuckles/Maxium Semelyanski Esq.
COURT JUDGMENT TO BE REVIEWED:
•

Hon. Henry F. Zwack (Supreme Court Justice)

•

Hon. Christopher E. Cahill

•

Hon. Lisa M. Fisher (Ulster County Court Foeclosure)

•

Hon. Michael Kraiza (Justice Court Marlboro)
CASES IN OTHER COURTS THAT ARE RELATED:
Theresa Romain v. John L. Decker (Commissioner DSS(Article 78) 3/11/98)
Theresa Romain v. Catherine Charuk Esq. Index No. 05-0944 (2006-2007)
RJI 55005-00409
Theresa Romain v. Catherine Charuk Esq. (2007) Littman Krooks LLP For
Romain.File No. 23724
Department of Social Service v. Theresa Romain Index No. 08-6430 (2009)
(RJI No. 55-08-0286)
Theresa Romain v. Department of Social Service(by Michael lapocee/
Commissioner) Index No. 08-5612 (12/16/2008) RJI 55-08-02160
Federal Bankruptcy Court RE: Theresa Romain Case No. 13-36786 (2013)
Wells fargo v. Theresa Romain Index No. 15-1301( 2015) RJI 55-15-01101
Wells fargo v. Theresa Romain Index No. 1675 (2009)
Wilmington Saving Fund Society v. Theresa Romain Index No. 1301 (2015)
Key Bank v. Theresa Romain (2009 & 2017)
(vii)

RBS Citizen NA v. Theresa S. Romain d/b/a Alternative Homecare Index No. 091979.
TABLE OF CONTENTS:
Page No.
Opinion Below

12

Jurisdiction,

2

Statement.

3

Relief Sought

5

Persons who exercises duress upon Petitioner.

6

Reasons To Vacate a Void Order.

6

Reason for Granting the Petition

6

Relief Sought Is Not Available In Any Other Court

6

Sixth Amendment Causing Harm

6

Deliberate Indifference to the need to a peron of color.

7

Conclusion,

8

INDEX TO APPENDICES:
Appendix A

Opinion from the Appeals Court & Copy of the order denying re­
hearing

Appendix B

Opinion of the Appellate Division 3rd Department

Appendix C

Opinion of State Court

Appendix D

Motion to relief from Void Order

Appendix E

Hon. Maria Rosa Reply

Appendix F

Affirmative Reply

Appendix G

Correspondent to U.S. Supreme Court
(viii)

Appendix H

Mandamus

Appendix I

Temporary Restraining Order

Appendix J

Computer Interference and Sabatoge

Appendix K

United Parcal (UPS)

Appendix L

Hon. Christopher Cahill Reply/

Appendix M

Corrine Desmond Esq Article 78

Appendix N

Hon. Kimberly O' Connor

Appendix O

Dr Villamon

Appendix P

Martuscello Esq. (Sarah's)

Appendix Q

Google Commercialization
TABLE OF AUTHORITIES CITED:

Bracey v. Warden U. S. Supreme Court No. 96-6133 (June 9, 1997)

PAGES
5

Cheny v. U.S.Dist. Court for D.C. 542 U.S. 367, 371 (2004)

6

Coleman v. Thompson 501 U.S. 722 (1991)

3

Davis v. United States 417 U.S. 333, 346 (1974)

5

Exparte United States 287 U.S. 241, 248 (1932)

4

Harris v. Reed 489 U.S. 255, 261 n. 7 (1989)

3

Labuy v. Howes Leather Co. 352 U.S. 249 (1957),

4 &6

Michigan v. Long 463 U.S. 1032 (1983),

3

Reynolds v. Volunteer State Life Ins, Co. Tex Civ. App, 80 S.W. 1092

5

Schlagenhauf v. Holder 379 U.S. 104 (1964)

4

Spacil v. Crowe 489 F. 2d 614 (5th Cir. 1974.

4

(ix)

United States v. Me Garr 461 F. 2d 1 (7th Cir. 1972)

4

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED:
Article 78

.8

H.R. 5298 White House Conference 5/8/1984 Public law No. 98-276

7

6th and 14 Amendmen.

9

1st-

14th below under page...............................

10

•

First Amendment (Petition Clause)

•

Fourth Amendment (Search and Seizure clause)

•

Fifth Amendment (Due Process Clause)

•

Sixth Amendment Clause (Right to Speedy trial)

•

Seventh Amendment (Access to Court)

•

Eight Amendment (Cruel and unusual Punishment)

•

Eleventh Amendment (20 U.S. Code § 1403.Abrogation of State
sovereign immunity)

•

Thirteenth Amendment( Slavery/Equal Work for Equal Pay)

•

Fourteenth Amendment (Due Process/ Equal Protection Clause
7

Magna Carta

(x)

IN THE SUPREME COURT OF THE UNITED STATES

“ IN RE [THERESA S. ROMA1NJ “ PETITIONER

PETITION FOR A WRIT OF MANDAMUS
COURT OF APPEALS FOR THE STATE OF NEW YORK

Theresa Romain on behalf of her self respectfully petitions
for a writ of Mandamus to the Supreme Court of the United
States to review the decision made by the highest court of New
York the Court of Appeals. The Writ of Certiorari was post
marked as untimely due to the seizure, interception and
destruction by the defendants. However in the alternative
Petitioner respectfully pray that the Court treat this petition as
a petition for a writ of Certiorari to review the judgment of the
Appeals Court utilizing the doctrine of the Constitution, the
First, Fourth, Fifth, Sixth, Eight and Fourteen Amendment.

ANALYSIS OF OPINION BELOW:
The opinion from the highest Court of the State located on
Appendix

A

Reported at New York State Law Reporting Bureau
•

An Extension of time to file the petition to Certiorari was granted on
date

located on Appendix

A

The opinion of the Appellate Division 3rd Department Court
Appears at Appendix

B

Reported the New York State Law Reporting Bureau
The opinion of the State Supreme Court appears at Appendix
C
The date in which the highest Court decided the case is
November 16. 2017.
The ruling was based on their rules “no petition for hearing is allowed on
absent of finality.
A timely filed petition for stay and judgment was denied by
the Appellate Division 3rd Department on January 18. 2018.
A Copy of that decision appears on Appendix

B

Motion to relieve from Void Order on Appendix

D

Hon. Maria G. Rosa Reply dated June 15, 2020 on Append

E
F

Affirmative Reply Against Hon. Rosa Decision on Appendix
Correspondent to U.S. Supreme Court on Appendix
Petition For Mandamus August 13, 2020 on Appendix
1

G
H

Temporary Restraining Against Defendants on Appendix

I

Computer Interference and Sabatoge on Appendix
Petitioner filed Writ of Certiorari within 90 days after the
denial of the Court of Appeals denial and it was seized by
United Parcel Services (UPS) et al. Enrute to U. S. Supreme
Court. Copy of the on Appendix __ K
Hon. Christopher Cahill Reply to Hon. Breslin(Chief Administrator) on
Appendix_L

JURISDICTIONAL STATEMENT:

• An Issuance of the Courts criteria, an Extraordinary Writ authorized by 28 ,
U.S.C. § 2241, A final Judgment of a State's highest Court be subject to
review or reversal only by the Supreme Court of the United States.

2

STATEMENT:
MANDAMUS

No

Filing for Mandamus under the Appellate Jurisdiction of the United
States Supreme Court:
It was the beginning of an era in February 2018 when the writ of Certiorari was
mailed via UPS to the Supreme Court of the United States. A long and tedious
battle petitioning State Court through the continuum all the way up to the highest
court of the state regarding a process which was never afforded to this petitioner
in an open court forum or in any State court. (Due Process Deprivation).
The petition was seized by the defendants in a conspiracy, never made it way to
the U.S. Supreme Court. In colloquial terms it was dead on arrival although it
never arrived. Petitioner a poor person suffered emotional and financial harm for
preparation of the petition in the booklet format as related to Rule 33.
A ministerial duty to out do one fraud with another fraud. The seizure of
the petition for Certiorari sent a message that Federal law did not compel
the result that State law was dis-positive. See Michigan v. Long 463 U.S. 1032
(1983), Harris v. Reed 489 U.S. 255, 261 n. 7 (1989) (collecting cases), Coleman v.
Thompson 501 U.S. 722 (1991) applying the rule in a habeas corpus. Federal
review of the claims is necessary to prevent a fundamental miscarriage of justice,
The fraudulent activities never cease it amount to detaining Theresa under
custody of the state without a court order egregious circumstances. Legal rights
are bestowed onto a person by a given legal system they cannot be modified,
3

repealed and restrained by human laws. The concept of positive law is related to
the concept of legal rights.
NOW COME Theresa requesting Mandamus from the U.S. Supreme court as an
extraordinary remedy which should only be used in exceptional circumstances of
peculiar emergency or public importance to release her from illegal and
unauthorized detention which infringes upon her liberty, safety and prosperity.
The art of been able to move around freely without shackles and surveillance
fundamental right Constitutionally sound. See Labuy v. Howes Leather Co. 352
U.S. 249 (1957),United States v. Me Garr 461 F. 2d 1 (7th Cir. 1972). Petitioning
the government for redress of grievances has become a crime. (1st Amendment
retaliation). In the forum of a civil case a defendant is innocent until proven
guilty, In a criminal case is beyond a reasonable doubt. A preponderance amount of
evidence is still the order of the day and by what and by whom Theresa was placed
under custody. There is a usurpation of judicial power which is unlawfully
exercised against Theresa a person of color, whom the State is supposed to protect.
Unlawful exercise of proscribed jurisdiction. See Schlagenhauf v. Holder 379 U.S.
104 (1964). Where the rights were clearly and indisputable. See Spacil v. Crowe
489 F. 2d 614 (5th Cir. 1974), Exparte United States 287 U.S. 241, 248 (1932).
Relief Sought:
Mandamus in excess (1) To have lower court and its actors remove all restriction
of confinement from the petitioner, (2) To have Hon. Maria Rosa void her order
which comprise to fraud upon the Court, (3) To have Microsoft and Google refrain
4

from their internet warfare, equipment, document destruction and surveillance's
on petitioner.
Persons who exercises duress upon Petitioner are as follows:
“Andrew M. Cuomo (Governor N.Y. State), Letitia James (Attorney
General N. Y.) (Individual and incapacity all et al),Eric Schneiderman(Former
Attorney General N.Y.) Hon. Thomas A. Breslin (Chief Administrative Judge),
Hon. Michael V. Coccoma (Former Deputy Administrative Judge), Hon. Karen K.
Peters( Former Presiding Justice 3rd Dept.), Justice Randall T. Eng,(Former
Justice of 2nd Dept.), Hon. Maria G. Rosa (Supreme Court Justice 9th District
Dutchess County), Clinton G. Johnson Esq (Ulster County Attorney), Hon.
Kimberly O' Connor et al, Wells Fargo et al, Wilmington Saving Fund Society et
al, Rusk walden & Martuscello et al, United Parcel Services (UPS) et al,
Microsoft Corporation et al, Google LLC et al. Let the defendants show cause for
keeping petitioner in bondage against the 1st, 4th , 5th” 6th ,8th’ and 14th
Amendment of the United States Constitution”.
Reasons To Vacate a Void Order:
“Where the Judge is involved in a scheme of bibery. See Bracey v.
Warden U. S. Supreme Court No. 96-6133 (June 9, 1997). Void judgment is one
which has no legal force or effect, invalidity of which can be asserted by any
person whose right are affected at any time and at any place directly or
collaterally. See Reynolds v. Volunteer State Life Ins, Co. Tex Civ. App, 80 S.W. 2D
1087, 1092. One from its inception is and forever continues to be absolutely null,
without legal efficacy, ineffectual to bind parties or support a right, no legal force”.
A Conspiracy between State and private parties to violate Constitutional rights.
Relief For Granting Mandamus:
•

Adequate relief cannot be obtained in any other form or from
any other court. The Writ is in aid of the Court's Appellate Jurisdiction
5

exceptional Circumstances warrant the exercise of the Court's discretionary
powers.
Reasons Why Relief Sought Is Not Available In Any Other Court:
Exhaustion of all possible avenue in State Court
The waiver of the 11th Amendment (State Court consented to suit in
Federal Court)
Where “circumstance [s] inherently result in a complete miscarriage of
justice and presents] exceptional circumstances” a writ must issue.
See Davis v. United States 417 U.S. 333, 346 (1974).
[W]here a [lower court] judge displayed a persistent disregard of the rules of
civil procedure promulgated by this court. See Labuy v. Howes Leather Co.
352 U.S. 249 (1957) Will 96.
History of persistant wrongs, fraudster action where the lower
court action constituted an unwarrented impairment of [judicial]
branch in the performance of its Constitutional duties. See Cheny v. U.S.
Dist. Court for D.C. 542 U.S. 367, 371 (2004).
Sixth Amendment Deprivation Causing Harm:
The issues of the petition involves the Constitutional provision such deprivation
under color of official rights which includes the Fourteenth Amendment rights
and the New York Human Rights Law, aiding and abetting dscrimination and
retaliation against petitioner who belongs to a particular class. Sixth Amendement
jurisprudence. Petitioner protest that she was not afforded a fair and speedy trial
6

by an impartial jury, she was not afforded the opportunity to confront witnesses.
The right to be informed of the charges brought against her, the power to obtain
her own witness and the right to assistance of counsel when defendants switched
gears from a civil forum to a criminal forum.
Theresa a prisoner conGrned under State law for “no punishable crime”.
The Supreme Court of the United States the sole abbetter and reviewer of the
judgment of that said State Court must determine why State has choosen that
route, release petitioner from detention and detetion and set your petitioner free
from an unconstitutional order which is detrimental to the welfare and health of
Theresa. The Magna Carta declared “[W]ee shall not

deny or delay justice

and right, neither the end, which is justice nor the means whereby we may attaine
to the end, and that is the law.”
Deliberate Indifference To Theresa a Person of Color:
Theresa a person of average intelligence is not a lawyer but a person of common
sense. A person who is able to determine right from wrong. The defendants are of
higher intelligence they are able to determine what the law is requred of
them through formal training. They are clothed in the armor of the State in which
they can do no wrong “well protected” with lucrative jobs, with life long benefits
and extravagant living in which they are preview to endless opportunities.
Theresa was the maker of her own craft in which the Internal Revenue and the
Labor Department determined a “Private Contractor” One who only get paid when
worked. It took good working ethics for Theresa to have been self employed for so
long. H.R. 5298 White House Conference on Small Business Authorization
7

Act passed in the house on 4/9/1998 purpose was to (1) Increase public awareness
of the contribution of small business (2) Indentify small business problems
(3) Examine the status of minority and women small business owners (4) Assist
small business in carrying out its role as the nation's job creator etc.
This awareness became effective on 5/8/1984 Public law No. 98-276.
The Constitution and the Common law described and prescribed the elements of
process due to Theresa. However a massive group of persons were hired by State
to make sure that this did not happen. What was hidden was a fraud perpetrated
on Theresa by the DSS. An Article 78 3/11/1998 was filed bv Corinne Desmonde
Esq. On behalf of Theresa. DSS refusing persons of color application for Family
Type Homes. There was no person of color holding such business and
application. There was a Registeed Nurse of color with a masters degree in
nursing and she was shut down. See Exhibit on Appendix M

Hon. Kimberly O'Connor, Michael Iapoce, Carol Pressman, Deborah Greenfield,
Richard Pichi, Melinda Robinbson and Patricia Sangi stated “ revocation is
warranted but not related to patients care”. See Exhibit on Appendix N. It is
incomprehensible to think that one is not loosing their job base on the care they
provide although this has always been the monologue of the Department of Social
Services. “Patient Abuse and Neglect” Dr Villamon Ms Forde private Physician
produced documentation to DSS and Theresa's attorney indicating Ms Romain is a
caring and excellent individual I have no problem with her care to several of my
patient. Exhibit O. The abuse to the elderly patients in Ms Romain's care was
very troubling to her and so she reported it, went to the Attorney General Cuomo,
the Appellate Division and even took the abuser to court. BUT is that enough to
drag one down to indigency and place under confirnment. A question for the
8

Supreme Court ??. One should not be punished for providing exceptional care but
under the same regime Theresa lost her mother and sister due to a deviation in
care, under the watchful eyes of the defendants. State Court sanction abuse on
Theresa.
After the exposure Ms Romain could not do anything right for the Department of
Social Services and through State Court. Here we have a will revoked by DSS via
the Ulster County Supreme Court and other fraudulent documents placed on
Theresa's name. Exhibit P. Theresa lost her career and became a poor person for
the love of her patients it unrelated to failure to protect. A Constitutional
deprivation via the 6th and 14 Amendment to State. Exhibit Q
The defendants who committed the Confirnment and the Constitutional harm.
on Theresa are all employed.. In the real world they would have been fired,
however they were all transferred into better paying position by head of state.

In Conclusion:
Petitioner having exhausted all remedies before the lower court and because
the petition for Certiorari was seized by the defendants.
The discretionary powers of this court is invoked to issue the Writ to confine
an inferior court to a lawful exercise, to restrain abuses and to stamp out the
inconsistency in state laws. This right apply to both indigent and wealthy
individual. Theresa an indigent petitioner was denied that right.
Causes of Action Presented:
•
•
•
•
•
•

Constructive Fraud
Unfair and Deceptive Trade Pratices
Negligence/ Misrepresentation
Unjust Enrichment
Professional Malpractice
Breach of Contract
9

•
•
•

Breach of Covenant of Good Faith and Fair Dealing
Fraudulent Inducment
Discrimination

Constitutional And Statutory Provisions Involved:
First Amendment (Petition Clause)
Fourth Amendment (Search and Seizure clause)
Fifth Amendment (Due Process Clause)
Sixth Amendment Clause (Right to Speedy trial)
Seventh Amendment (Access to Court)
Eight Amendment (Cruel and unusual Punishment)
Eleventh Amendment (20 U.S. Code § 1403Abrogation of State
sovereign immunity)
Thirteenth Amendment Slavery/Equal Work for Equal Pay)
Fourteenth Amendment (Due Process/ Equal Protection Clause )
Wherefore petitioner pray that the petition be granted based upon the above.
Grant petitioner judgment for irreparable harm in the amount of One hundred and
fifty Million, for post conviction deprivation, pain and suffering, emotional
distress, anxiety, Hypertension, failure to protect. (2) Five billion for erratic,
offensive, improper behavior by “big Tech” for document spoliation, harassment,
computer interference and defiance to quit. Award other judgment as the
Court sees fit and proper.
Respectfully Submii
f

Theresa S. Romain(Petitioner)
Date:

11/20/20

10

